                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A06020005               0                         1                          1   Page 1 o f 1



      ;.   August 23,2006

           We reviewed a variety of materials relative to the animal care and use practices at a research
           institution' that received NSF funds2 during a certain five year period.3 The institution offered
           evidence that NSF awards were not affected by documented systemic deficiencies during the relevant
           time frame. Further, the institution recently examined all currentlNSFawards involving animals to
           ensure compliance with all animal care rules and regulations. Barring receipt of any additional
           information to the contrary, the institution appears to have satisfactorily addressed these matters.

           Accordingly, this case is closed.




           ' [redacted]
            [redacted]
            [redacted]




rlSF OIG Form 2 (11/02)
